<html>
<title> - REVIEW AND STATUS OF THE MULTIBILLION- DOLLAR DEPARTMENT OF HOMELAND SECURITY RELOCATION PROJECT IN WASHINGTON, DC, AND ITS IMPACTS ON THE U.S. COAST GUARD</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                 REVIEW AND STATUS OF THE MULTIBILLION-
                 DOLLAR DEPARTMENT OF HOMELAND SECURITY
               RELOCATION PROJECT IN WASHINGTON, DC, AND
                  ITS IMPACTS ON THE U.S. COAST GUARD

=======================================================================

                                (112-52)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                COAST GUARD AND MARITIME TRANSPORTATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 23, 2011

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation



                  U.S. GOVERNMENT PRINTING OFFICE
68-482                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f196819eb19284828599949d81df929e9cdf">[email&#160;protected]</a>  

             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    JOHN L. MICA, Florida, Chairman
DON YOUNG, Alaska                    NICK J. RAHALL II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
FRANK A. LoBIONDO, New Jersey            Columbia
GARY G. MILLER, California           JERROLD NADLER, New York
TIMOTHY V. JOHNSON, Illinois         CORRINE BROWN, Florida
SAM GRAVES, Missouri                 BOB FILNER, California
BILL SHUSTER, Pennsylvania           EDDIE BERNICE JOHNSON, Texas
SHELLEY MOORE CAPITO, West Virginia  ELIJAH E. CUMMINGS, Maryland
JEAN SCHMIDT, Ohio                   LEONARD L. BOSWELL, Iowa
CANDICE S. MILLER, Michigan          TIM HOLDEN, Pennsylvania
DUNCAN HUNTER, California            RICK LARSEN, Washington
ANDY HARRIS, Maryland                MICHAEL E. CAPUANO, Massachusetts
ERIC A. ``RICK'' CRAWFORD, Arkansas  TIMOTHY H. BISHOP, New York
JAIME HERRERA BEUTLER, Washington    MICHAEL H. MICHAUD, Maine
FRANK C. GUINTA, New Hampshire       RUSS CARNAHAN, Missouri
RANDY HULTGREN, Illinois             GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
CHIP CRAVAACK, Minnesota             MAZIE K. HIRONO, Hawaii
BLAKE FARENTHOLD, Texas              JASON ALTMIRE, Pennsylvania
LARRY BUCSHON, Indiana               TIMOTHY J. WALZ, Minnesota
BILLY LONG, Missouri                 HEATH SHULER, North Carolina
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
PATRICK MEEHAN, Pennsylvania         LAURA RICHARDSON, California
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
JEFFREY M. LANDRY, Louisiana         DONNA F. EDWARDS, Maryland
STEVE SOUTHERLAND II, Florida
JEFF DENHAM, California
JAMES LANKFORD, Oklahoma
REID J. RIBBLE, Wisconsin
CHARLES J. ``CHUCK'' FLEISCHMANN, 
    Tennessee
                                ------                                7

        Subcommittee on Coast Guard and Maritime Transportation

                FRANK A. LoBIONDO, New Jersey, Chairman
DON YOUNG, Alaska                    RICK LARSEN, Washington
HOWARD COBLE, North Carolina         ELIJAH E. CUMMINGS, Maryland
ANDY HARRIS, Maryland                CORRINE BROWN, Florida
FRANK C. GUINTA, New Hampshire       TIMOTHY H. BISHOP, New York
CHIP CRAVAACK, Minnesota             MAZIE K. HIRONO, Hawaii
BLAKE FARENTHOLD, Texas              MICHAEL H. MICHAUD, Maine
JEFFREY M. LANDRY, Louisiana,        NICK J. RAHALL II, West Virginia
  Vice Chair                           (Ex Officio)
JOHN L. MICA, Florida (Ex Officio)


                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               TESTIMONY

Bathurst, Hon. Donald G., Chief Administrative Officer, 
  Department of Homeland Security................................     4
Currier, Vice Admiral John P., Deputy Commandant for Mission 
  Support, United States Coast Guard.............................     4
Peck, Hon. Robert A., Commissioner, Public Buildings Service, 
  General Services Administration................................     4

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Norton, Hon. Eleanor Holmes, of the District of Columbia.........    19

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Bathurst, Hon. Donald G..........................................    21
Currier, Vice Admiral John P.....................................    24
Peck, Hon. Robert A..............................................    26

[GRAPHIC] [TIFF OMITTED] T8482.001

[GRAPHIC] [TIFF OMITTED] T8482.002

[GRAPHIC] [TIFF OMITTED] T8482.003

[GRAPHIC] [TIFF OMITTED] T8482.004

[GRAPHIC] [TIFF OMITTED] T8482.005

[GRAPHIC] [TIFF OMITTED] T8482.006



                 REVIEW AND STATUS OF THE MULTIBILLION-
                     DOLLAR DEPARTMENT OF HOMELAND
                     SECURITY RELOCATION PROJECT IN
                   WASHINGTON, DC, AND ITS IMPACTS ON
                          THE U.S. COAST GUARD

                              ----------                              


                       FRIDAY, SEPTEMBER 23, 2011

                  House of Representatives,
           Subcommittee on Coast Guard and Maritime
                                    Transportation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
room 2167, Rayburn House Office Building, Hon. Frank LoBiondo 
(Chairman of the subcommittee) presiding.
    Mr. LoBiondo. Good morning. The subcommittee will come to 
order.
    The subcommittee is meeting today to review the current 
plan to move the Coast Guard headquarters to the west campus of 
St. Elizabeths hospital in Anacostia. The subcommittee has long 
had concerns with the plan to move the Coast Guard headquarters 
to St. Elizabeths. Specifically, the subcommittee has been 
concerned with the adequacy of access to the facility. 
Isolation of the Coast Guard, if no other entities move to the 
campus, would be a big question mark.
    Any additional cost that would be borne by the Coast Guard 
to move to the new facility and to support its operations would 
also be another huge concern and the impact of those costs will 
have on the ability of the Service to conduct their critical 
missions.
    In 2006, the authorization bill for the Coast Guard 
prohibited the Service from moving until the General Services 
Administration provided a plan that identified another DHS 
agency that would be moving to St. Elizabeths around the same 
time as the Coast Guard, what improvements would be made to 
access the facility, and how the move would affect the 
Service's operations. The GSA provided that plan, but now, due 
to funding constraints, it will not be followed.
    House appropriators have not provided funding in fiscal 
year 2012 to complete the new Coast Guard headquarters, and 
Senate appropriators have provided what may be just barely 
enough to enable the Coast Guard to move but no funding for 
construction for any other DHS component, and this is a matter 
of huge concern.
    And now the Secretary is saying that she would rather spend 
her limited funding on front-line operations than on St. 
Elizabeths's project. While I wholeheartedly agree with her 
Coast Guard front-line operations are critically important, 
however, we are concerned that that position leaves the Coast 
Guard further in limbo.
    At our July 2011 hearing, the subcommittee was informed 
that it could cost the Service over $54 million in fiscal year 
2013 to move its headquarters and that it could cost over $20 
million annually in additional rent in each of the following 
years. In the current fiscal environment, those are significant 
numbers; and they could have significant impacts on the 
Service's front-line operations, which is something none of us 
want to see.
    We all know the Coast Guard is hard pressed to meet its 
current mission goals. The Service has testified before this 
committee that it lacked the manpower and assets to effectively 
respond to the Deepwater Horizon oil spill or to conduct safety 
inspections of commercial vessels or to continue to conduct 
port security operations at the current tempos or to upgrade 
housing for its servicemembers. The list just goes on and on. 
Before the Service is forced to spend tens of millions of 
additional operating dollars on rent, perhaps we could focus on 
addressing these priorities first.
    In addition to the cost of resource issues, there are 
several logistical issues that I think further complicate this 
move. There is currently insufficient road access to St. 
Elizabeths. The Department's consolidation plans call for 
construction of a new off ramp from I-295 because the current 
access to St. Elizabeths is inconvenient and, maybe more 
importantly, inadequate. Unfortunately, the construction of 
this off ramp is not planned until several years after the 
Coast Guard relocates to St. Elizabeths. And that is when it is 
planned for. So when it will actually happen remains a big 
question mark.
    In addition, there are several hundred less parking spaces 
available to Coast Guard personnel at St. Elizabeths than there 
are at the current headquarters location. This will force a 
large number of personnel to rely on public transportation and 
a contracted shuttle bus, which may or may not be able to meet 
the demand. So I am very concerned about the message that we 
are giving to the personnel who have to move out there as well.
    So I hope our witnesses will be able to address these 
logistical issues.
    The subcommittee does not oppose moving the Coast Guard 
headquarters to St. Elizabeths. We understand the value in 
consolidating DHS headquarters in one location. However, the 
subcommittee was promised by the previous administration that 
moving the Coast Guard would not unduly burden the Service 
financially, undermine its mission readiness, or leave it 
isolated at St. Elizabeths. Unfortunately, it appears as though 
our worst fears are coming true.
    Before this plan can move forward, the Department and the 
Service need to work out an arrangement that does not disrupt 
front-line operations or leave the Service out there on its 
own. Otherwise, we will be forced to take action to keep 
taxpayer dollars from being needlessly wasted and to ensure 
that the Coast Guard stands ready to do its job and protect the 
American people.
    I would like to thank our witnesses for appearing here 
today. We look forward to their testimony.
    And now I would like to yield to Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman, for convening this 
morning's oversight hearing to review the status of the 
Department of Homeland Security's consolidation project in 
Washington, DC. Our focus is on the relocation of the U.S. 
Coast Guard to a new headquarters facility that is currently 
under construction at this particular site.
    The Coast Guard, among its diverse missions, functions as 
the lead Federal maritime law enforcement agency responsible 
for domestic maritime security. As such, the Service is engaged 
in several activities vital to homeland security, including 
port, waterway, and coastal security operations, vessel and 
cargo inspection, and illegal migrant and drug interdiction.
    Through these activities and more, the Service ensures our 
coastal resources infrastructure are protected, that our ocean, 
Great Lakes, and inland waterway commerce remains safe and 
stable, and that our maritime industries continue to provide 
jobs and economic opportunity.
    With the passage of the Homeland Security Act of 2002, the 
Coast Guard was transferred from the Department of 
Transportation and become part of the new Department of 
Homeland Security. Notwithstanding the normal growing pains 
that are to be expected with any significant Government 
reorganization, that movement has provided more or less mutual 
benefits to the Coast Guard and DHS.
    The Congress and the Bush administration in 2007 begin the 
joint process of designing and building a consolidated DHS 
headquarters facility to better leverage the capabilities of 
this newly created Department and to promote mission 
integration and reduce duplication. These objectives remain as 
relevant today as they were in 2007.
    Located at the 338 acre St. Elizabeths campus across the 
Anacostia River from the Capitol in Southeast Washington, when 
construction concludes in 2016 the new DHS's campus will 
provide 4\1/2\ million square feet of office space for 
approximately 14,000 employees and servicemembers.
    I might also add this project, which is providing hundreds 
of high-paying jobs, has been delivered on time, within 
budget--no small accomplishment. While there are some critics 
expressing concern about the cost associated with the Coast 
Guard's relocation to this new facility, something that the 
Service fully supports and which the GSA insists remain on 
schedule, the reality is that these costs have always been 
known and accounted for.
    Moreover, DHS, GSA, and the Coast Guard are presently 
developing an equitable cost-sharing strategy to ensure the 
Coast Guard's operational capabilities are not diminished. On 
this point, I agree entirely with Chairman LoBiondo. The Coast 
Guard should not have to pay more than its fair share when it 
relocates to its new facility at St. Elizabeths, and I urge the 
agencies to finalize a cost-sharing arrangement as soon as 
possible to ease any of our concerns.
    Another issue looming is that we may lose many of the cost 
savings and other benefits that have been realized thus far 
unless Congress itself renews its commitment to fund 
construction of St. Elizabeths. Homeland Security is simply too 
important for the Congress to allow this project to drift off 
course to an uncertain future.
    No one has questioned the need to complete the 
consolidation. For that matter, no one has seriously proposed 
its termination. Yet, remarkably, the House appropriations 
bills do not fund this project, even though the end result will 
mean significantly higher costs, scheduled delays, higher 
unemployment, and, worst of all, a DHS that is less efficient, 
less coordinated, and less effective that it could be if this 
project was successfully completed.
    I hope everyone wants to maximize the value of our $1.4 
billion investment. It will require a small additional 
investment to achieve it. Unfortunately, that investment to 
date will be nearly worthless unless we finish it.
    Again, I share the chairman's concern for potential impacts 
to the Coast Guard's operations budget as a result of the 
Service's relocation to St. Elizabeths. But we should not lose 
focus on the fact that it is Congress that controls whether or 
not this consolidation project is completed on schedule and 
within budget. So to the extent that we can work together to 
keep this larger project on track for timely completion we will 
also attain our mutual goal of insuring a more effective U.S. 
Coast Guard.
    Mr. Chairman, that completes my opening statement.
    I also have a unanimous consent request. I ask unanimous 
consent that pursuant to Rule 3(e) of the committee rules that 
Congresswoman Norton be allowed to participate in today's 
hearing.
    Mr. LoBiondo. Without objection, so ordered.
    Welcome, Ms. Norton. Thanks you for joining us.
    Our panel of witnesses include Coast Guard Vice Admiral 
John Currier, the Deputy Commandant for Mission Support; Mr. 
Donald Bathurst, DHS Chief Administrative Officer, and the 
Honorable Robert Peck, Commissioner of Public Buildings for the 
GSA.
    I welcome you and thank you for being here today and for 
participating.
    Admiral Currier, you are recognized.

 TESTIMONY OF VICE ADMIRAL JOHN P. CURRIER, DEPUTY COMMANDANT 
 FOR MISSION SUPPORT, UNITED STATES COAST GUARD; THE HONORABLE 
DONALD G. BATHURST, CHIEF ADMINISTRATIVE OFFICER, DEPARTMENT OF 
     HOMELAND SECURITY; AND THE HONORABLE ROBERT A. PECK, 
   COMMISSIONER, PUBLIC BUILDINGS SERVICE, GENERAL SERVICES 
                         ADMINISTRATION

    Admiral Currier. Thank you, Chairman LoBiondo. Good 
morning, Ranking Member Larsen, distinguished members of the 
subcommittee. I am honored to appear before you today with Mr. 
Donald Bathurst and Mr. Robert Peck to speak about the Coast 
Guard headquarters' move to St. Elizabeths.
    The Coast Guard is committed to the vision of a unified 
Department of Homeland Security headquarters campus, and we 
look forward to being the first to relocate to St. Elizabeths. 
GSA, DHS, and the Coast Guard team have been working since 2005 
in preparation of the Coast Guard's move to St. Elizabeths, and 
we look forward with anticipation to completion of phase 1 
construction in 2013.
    For the Coast Guard, St. Elizabeths represents improved 
working conditions for our people, as well as occupy a brand 
new class A office space. The facilities include not just Coast 
Guard headquarters building but also space required for 
personnel support. Those activities include a medical, dental 
clinic, child development center, cafeteria, fitness center, 
parking, and a Coast Guard Exchange. GSA is committed to 
completing all of these facilities prior to our move, which is 
scheduled to begin in April of 2013.
    I have walked this site several times, sir, and I am most 
impressed with both the setting, the quality, the layout. It is 
really coming together as a fantastic new location for Coast 
Guard headquarters.
    However, the GSA/DHS Coast Guard plan is dependent on 
funding. The 2012 President's budget included funding for both 
DHS and GSA, and if not supported that would leave the project 
without adequate resources to facilitate the move or for the 
construction of key access roads. Without this funding, the 
Coast Guard's move to St. Elizabeths will be impacted.
    Additionally, when I testified before you this summer, I 
spoke regarding my concern regarding operating costs of the new 
facility and our ability to fund the lease. I report to you 
today that DHS has assured the Coast Guard that they will 
provide the requisite resources to support the move and any 
additional recurring cost incurred with the relocation. The 
Secretary told the commandant that she is committed to ensuring 
the move to St. Elizabeths does not impact front-line Coast 
Guard operations.
    In addition, GSA has made a commitment to waive double 
occupancy rent costs for the facilities at Buzzards Point and 
St. Elizabeths to reduce our move-in costs in fiscal year 2013. 
We understand that we are moving out of a campus that will 
still be under construction, and that will create unique 
challenges for our workforce. Given the imminent move over the 
past year, my staff has developed a communications plan to 
inform our people regarding the move, identify questions and 
concerns from our workforce.
    In addition to publishing information on all-hands 
announcement on our Web site, I recently personally hosted town 
hall events with the headquarters' workforce. Questions ranged 
from parking to shuttles to status of construction; and with 
the cooperation of DHS and GSA, I was able to reassure our 
workforce that their concerns are in fact being addressed. I 
intend to continue to work with DHS, the project staff, and GSA 
to assure that, despite ongoing construction, a safe, secure, 
and functional environment is provided for all of our 
employees.
    Thank you again for the opportunity to testify, and I will 
be happy to answer any of your questions.
    Mr. LoBiondo. Thank you, Admiral.
    Mr. Bathurst, you are recognized.
    Mr. Bathurst. Chairman LoBiondo, Ranking Member Larsen, 
members of the committee, good morning. Thank you for the 
opportunity to appear before you in support of our efforts to 
consolidate the Department's headquarters.
    I am Don Bathurst, the Chief Administrative Officer for the 
Department of Homeland Security; and I am pleased to be here 
today to update you on the program toward establishing the DHS 
consolidated headquarters at St. Elizabeths, with particular 
interest on the Coast Guard's move.
    The Secretary's first priority is to support our front-line 
missions, and in this challenging fiscal environment difficult 
decisions have to be made. The Secretary and the administration 
remain committed to consolidating the Department's 
headquarters, as evidenced by the President's fiscal 2011 and 
2012 budget request, and will continue to work with Congress to 
move this project forward while maintaining front-line 
operations again during these challenging fiscal times.
    With bipartisan support, the phase 1 construction of the 
DHS consolidated headquarters, the Coast Guard building, 
started in fiscal year 2009 with appropriations to both DHS and 
GSA. The Recovery Act provided the project with sufficient 
funds to meet our planned fiscal 2010 requirements for the 
project. This project was on schedule and on budget with the 
submission of the fiscal year 2011 budget. DHS and GSA were 
poised to start the critical next segments of the 
headquarters--the departmental headquarters segment and the 
construction of the DHS operations center.
    Bringing the component operation centers together into the 
DHS operations center will resolve deficiencies in operational 
management, which was noted in various lessons learned reports 
and Government Accountability Office reports after Hurricane 
Katrina.
    In fiscal year 2011, DHS received $77.4 million of our 
$287.8 million request; and GSA received $82 million for their 
entire nationwide new construction program, of which $30 
million was allocated to the St. Elizabeths project. This 
reduction has disrupted the integrated sequencing of the 
project, delayed the schedule, caused a loss of planned 
construction efficiencies, and, as a result, will increase the 
cost of the project.
    The fiscal year 2012 request is critical to both DHS and 
GSA for on-schedule completion and occupancy of the Coast 
Guard. Of the combined $378 million requested between DHS and 
GSA, we need $132 million for Coast Guard to occupy phase 1 as 
planned. DHS would need $56 million for IT equipment, 
commissioning, outfitting, and the move costs. GSA needs $76 
million for transportation and utility infrastructure. The 
funding requirements are co-dependent. Without both, the new 
1.1 million square foot Coast Guard building will not be fully 
ready for occupancy.
    Completion of phase 1 of the St. Elizabeths campus is the 
first priority for this project, followed immediately by the 
construction of the DHS operations centers. We are committed to 
do this and to ensure the support of the front-line missions. 
This will allow the Department to maximize the taxpayer 
investment and resolve major lessons learned from Hurricane 
Katrina and other operational experience. We urge your 
continued support for this critical investment that provides 
better operational efficiencies and saves money in the long 
run.
    Again, I thank you for the opportunity to testify this 
morning; and I am pleased to answer any questions you may have.
    Mr. LoBiondo. Thank you.
    Mr. Peck, you are recognized.
    Mr. Peck. Thank you, Mr. Chairman, Ranking Member Larsen, 
Ms. Norton, and other members of the subcommittee.
    I have a written statement which we want to submit for the 
record.
    I appreciate the opportunity to join you today to discuss 
our continued progress toward moving the Coast Guard 
headquarters to the consolidated DHS headquarters at the St. 
Elizabeths campus. And you can see on the screens in the room 
construction progress. That photo was taken this month.
    Congress, Coast Guard, DHS, and GSA developed and agreed 
upon the consolidation strategy for DHS in 2006, the first 
facility scheduled to come on line as a Coast Guard 
headquarters building worthy of the Coast Guard's vital 
missions, enhancing its ability to achieve those missions and 
providing a building customized to meet its specific 
requirements and security needs.
    Throughout its brief history, DHS headquarters functions 
have been scattered in more than 50 locations throughout the 
national capital region. This fragmentation has resulted in 
operational challenges for the agency. Many of these locations 
are leased space, which is not cost effective in the long term 
and cannot offer the same degree of security or efficiency as a 
campus such as St. Elizabeths. Consolidation into one secure 
campus will facilitate communication, coordination, and 
cooperation across the agency and increase operational 
efficiency, while also providing a more cost-effective and 
secure workplace for the long term.
    Construction of the $350 million, 1.2 million square foot 
Coast Guard building built to the exact specifications of the 
Coast Guard is on budget and on schedule for completion in 
fiscal year 2013. It also represents a significant product 
milestone in housing the first 3,600 employees of the total of 
14,000 Homeland Security employees who eventually will be 
housed on the campus.
    In addition to completing the new Coast Guard headquarters 
building, GSA is in the process of renovating several St. 
Elizabeths campus buildings, constructing the security's 
perimeter fence, gatehouses and utility tunnels. This 
construction, coupled with the adaptive reuse of historic 
buildings on the campus, will provide secure space and 
sufficient amenities for the Coast Guard while other components 
are constructed and development occurs in the surrounding 
community.
    GSA recognizes that while the House appropriation action 
for fiscal year 2012 so far has eliminated our proposed $218 
million in construction funding for St. Elizabeths, the Senate 
mark includes $65 million. The Senate mark also includes $56 
million in funding for DHS to complete their portion of the 
project for the Coast Guard move in.
    The consolidation of the DHS particularly at this time 
presents a variety of opportunities to save taxpayers' money 
and make good long-term housing decisions. The unfortunate 
downturn in the construction market has given us an opportunity 
to achieve more with current funding levels. This is the right 
time to invest in the Nation's infrastructure. Funding delays 
result in construction cost escalations and present real cost 
increases to taxpayers.
    Additionally, consolidation allows us to eliminate the 
dozens of leases currently housing DHS. The Government 
Accountability Office has long focused on the Federal 
Government's overreliance on leasing as a high-risk concern. By 
converting from lease to owned space, GSA will generate revenue 
for reinvestment needed for our public buildings 
infrastructure, rather than paying higher costs in private 
buildings.
    The Coast Guard headquarters alone will represent the 
conversion of nearly 1 million square feet of space from leased 
to Federal ownership. This conversion of lease to owned space 
saves taxpayers money in the long term. Based on the net 
present value analysis for the consolidated campus, taxpayers 
will save approximately $500 million in net present value, 
versus the cost of leasing the same amount of space over the 
next 30 years.
    GSA and DHS are proud to work together in delivering this 
essential campus. While the timeline of the remainder of the 
DHS headquarters consolidation project will have to shift due 
to funding limitations, both DHS and GSA as well as this 
administration remain committed to the success and completion 
of this project in as short a time as possible and at the least 
cost.
    Thank you for inviting me to testify. I know I have not 
answered all of your questions in my statement, and I look 
forward to our conversation this morning. Thank you.
    Mr. LoBiondo. Thank you.
    Admiral Currier, the Coast Guard may be required to pay the 
cost of moving personnel and equipment as well as the cost to 
simultaneously lease space at its current headquarters location 
and the new headquarters building at St. Elizabeths. At our 
subcommittee hearing in July, you estimated that this could 
cost the Service an additional $54 million over the current 
fiscal year's expenditures. Is that number still accurate?
    Admiral Currier. Thank you, Mr. Chairman.
    During the July hearing when I testified to that figure, 
that was our best estimate at the time. We have been engaged, 
fully engaged in partnership with DHS and GSA. We worked to 
achieve better fidelity in the figures. We have arrived in an 
arrangement with GSA and DHS. Their double occupancy will not 
be charged, which was a large portion of that $54 million. So I 
am pleased to say that as we continue to work toward our move 
that we have materially reduced that $54 million figure, and we 
continue to work to reduce it even further.
    Mr. LoBiondo. Well, that is good news, but we would sure 
like to have a hard number or close to a hard number. And, of 
course, timing is of importance here.
    Admiral Currier. Yes, sir.
    Mr. LoBiondo. The current headquarters lease costs about 
$36 million annually. The subcommittee understands that the new 
facility will cost the Service $53 million a year, about a 42-
percent increase in rent. Do you feel those numbers are 
accurate?
    Admiral Currier. Sir, they continue to be evolved. I 
hesitate to give you a number at this point. And I am not 
trying to be evasive, but we continue to work toward reducing 
those numbers.
    But the offset on this is there is an enhanced footprint 
for us. We have got a larger child care facility. We have 
better IT. We are going have a more secure campus that we are 
not on and quite vulnerable today.
    So I am not trying to be evasive, and I can provide a 
figure for the record as we mature it. We are working closely 
in partnership with the other agencies to reduce that to the 
max extent.
    I guess the overarching theme, sir, is that the Commandant 
and the Secretary and everybody involved is committed to the 
fact that whatever costs are incurred here will not affect 
Coast Guard front-line operations.
    Mr. Peck. Mr. Chairman, might I add?
    The comparison of current lease costs to the lease costs 
that GSA will charge to the Coast Guard and DHS at the site are 
comprised--the gap is comprised of a couple factors.
    One, the building that we are building for the Coast Guard 
is custom designed for it. The building they lease is not. The 
building that we are building is a first-class building 
designed for the operations of the Coast Guard. The current 
leased location is not.
    One of the current lease locations is in the 100-year flood 
plain. We are not sure we would be able to renew the lease at 
that location. But, if we do, the building, in any event, both 
for the flood plain issues and the fact that the building is 
old and needs a lot of work, will require extensive renovation; 
and that would increase the lease costs at the current lease 
location, too.
    So the gap that the current lease costs does not quite 
reflect what we think the costs would be in the future, even 
were we to lease.
    And then, finally, as I noted in my testimony, leasing 
space in the long run for the Government, as this committee has 
always reminded us, is a bad fiscal deal for the taxpayers.
    Mr. LoBiondo. Mr. Bathurst, Admiral Currier just made a 
statement that Secretary Napolitano's commitment to move 
forward is unwavering, and I would just like a clarification.
    On September the 8th, the Secretary was reported in the 
press to have stated that she would prefer to spend her limited 
dollars on front-line operations, rather than the St. 
Elizabeths project. She also indicated that she was reexamining 
moving the Coast Guard headquarters out there. Was this press 
account accurate?
    Mr. Bathurst. Thank you, Mr. Chairman.
    I don't believe the press account was completely accurate. 
I think it was taken out of context.
    As I said in my testimony, there were very, very difficult 
decisions have to be made in these trying fiscal times. Front-
line mission has got to be supported. We have got to support 
our men and women on the pointy end of the spear.
    That said, the support activities, the buildings, and the 
like are a large cost of any organization; and we have got to 
be very prudent as how we move forward with those.
    The Secretary was really discussing the environment that we 
are in, in that our request in 2011 had been reduced 
drastically in the 2011 continuing resolution; and at the time 
she made that statement the House appropriations committee mark 
for the project was zero. And, in that, that puts the project 
at risk. And with those marks, the issue was we are not going 
to take money out of the front-line mission to make up those 
differences. We are going to go have to live within the means 
that the project is appropriated, which will then impact the 
cost and schedule long term on the project.
    Mr. LoBiondo. We are trying to get some clarity, so I 
don't--I really want to make sure you don't think I am trying 
to nitpick at you here. But there is a lot of money at stake. 
And I note in your testimony that it did not--unless I missed 
it--include any assurances that the Department is doing 
everything it can to ensure the move to St. Elizabeths will 
have no adverse affect on the impact of Coast Guard front-line 
operations. Was that maybe just an omission or----
    Mr. Bathurst. I think, as Admiral Currier said, we are 
working with the Coast Guard on their operational support 
costs. It is our commitment that the Coast Guard and any other 
occupants of the headquarters space, as we continue to build 
out the campus and bring other components there, will only pay 
their fair share. We are committed to that.
    Issues of outfitting the space, the move costs for the 
Coast Guard are all being borne by the project office. Those 
are not costs that the Coast Guard has to come up with. They 
only need to pay their occupancy costs once they are there.
    Again, we are looking at what the current costs are, which 
there are a lot of different elements to that, into a 
consolidated operating support cost that will be at the 
consolidated headquarters location. And as that analysis is 
still, as Admiral Currier said, being refined, we believe that 
the current costs and the future costs will be comparable.
    Mr. LoBiondo. So are you prepared to give us that assurance 
now?
    Mr. Bathurst. Absolutely, sir.
    Mr. LoBiondo. OK, without any hesitation.
    I will be finished here in just a minute, Rick.
    When do you expect an agreement on cost sharing between the 
Coast Guard and DHS and GSA?
    Mr. Bathurst. Well, the analysis is ongoing. Certainly we 
will have, I believe, good numbers with the President's budget 
request that will come up here in the next 5 months.
    Mr. Larsen. Thank you, Mr. Chairman.
    Mr. Chairman, I want to yield my time to Ms. Norton.
    Ms. Norton. I thank the gentleman for yielding me his time, 
and I thank the chairman for allowing me to appear at this 
subcommittee of which I am not a member, although I am a member 
of the full committee.
    Admiral Currier, do you have any reluctance about being the 
first to move to this site? Do you believe that others have to 
be on this site in order for the Coast Guard of the United 
States to feel that it can move to the site?
    Admiral Currier. No, ma'am. Thank you for that question. We 
have no reluctance. We are quite enthusiastic. We see this move 
as very beneficial to our operational efficiency, to our 
habitability concerns for our people. We are not wavering at 
all in our commitment to move. We are not concerned about being 
first. We have been first in the planning since day one, and we 
are very enthusiastic about making this move over to St. 
Elizabeths.
    Ms. Norton. Well, actually I am not surprised. You are the 
United States Coast Guard. I couldn't believe that the United 
States Coast Guard would be reluctant or wouldn't want to be 
the first to move to a new site, not our United States Coast 
Guard. And it seems to me quite appropriate that the Coast 
Guard lead the way, as the Coast Guard so often has led the way 
in our country.
    I certainly thank you for all you did in Hurricane Katrina, 
because you certainly saved the day there.
    I note that the Coast Guard is leading by example. The 
Commandant tells me that he has already moved his residents to 
be closer to this new facility. Is that not the case?
    Admiral Currier. Yes, ma'am. We were able to enter into an 
agreement with the Air Force to actually move the top four 
people in Coast Guard headquarters over to Bolling Air Force 
Base, which is quite a cost avoidance for us. We were able to 
save some money doing that. It clearly is probably a 5- to 10-
minute commute to the new facility. So it is a win, win for 
everyone.
    Ms. Norton. Admiral Currier, you are going to be--except 
for the Secretary herself who will be located here, of the 22 
agencies that are a part of Homeland Security Department, the 
Coast Guard gets to be the lead agency located there and one of 
the few agencies that can be located right there on the 
headquarters site. You indicated in a publication called the 
Federal Response to Katrina: Lessons Learned, that, first and 
most important, the Federal Government response organizations 
must be collocated and strengthened to manage catastrophes in a 
new management operations center. Do you expect that the Coast 
Guard headquarters--the location of the Coast Guard 
headquarters as part of a national operations center will 
improve the operations of the Coast Guard itself as an entity 
and within the Department of Homeland Security?
    Admiral Currier. Yes, ma'am. I think that is clearly the 
case.
    What we have seen over the past year even with our response 
to the Haitian earthquake, response to the Deepwater Horizon 
spill in the Gulf of Mexico is that increasingly these complex 
responses involve whole of Government. For us to be able to, as 
the Secretary has articulated, be in one location building a 
DHS culture and actually being collocated as we coordinate the 
response from DHS I think is a huge benefit and clearly is the 
way forward for us.
    Ms. Norton. Mr. Bathurst, I served on the special Homeland 
Security Committee when it was a special committee. I was on 
the committee when it became a permanent committee. The only 
reason I am not on it now is because the number of committees 
was reduced to two. The Department was under constant criticism 
from the committee, and much of that criticism really had to do 
with the failure of the Department to become a coherent, 
integrated organization. Do you believe that the DHS complex, 
beginning, of course, with the Coast Guard but involving the 
Secretary and headquarters operations as well, will reduce that 
criticism of the agency as essentially the same sprawling bunch 
of 22 agencies it was before Congress made the fateful decision 
to make one Department of these agencies?
    Mr. Bathurst. Yes, the short answer. That is really the 
focus of the project, is to bring the departmental headquarters 
with all of the component headquarters together around a 
consolidated operations center.
    Again, Coast Guard is first to move over. They have had a 
longstanding need for consolidation of their headquarters, and 
the St. Elizabeths site was perfect for that with the 
continuation of the build-out of the DHS consolidated 
operations centers and the departmental headquarters. That is 
why we had a very aggressive integrated construction schedule 
and the fiscal year 2011 and 2012 requests were to start the 
work on the operations center and the secretarial offices and 
the departmental headquarters.
    With the reductions in the funding for fiscal year 2011 in 
the CR and with the uncertainty of fiscal year 2012, it is 
impacting out ability to bring the Secretary's office and to 
build out the consolidated operations center. But when we get 
those done I think, as Admiral Currier said, it will have a 
significant, positive impact on our operational capabilities 
and coordination.
    Ms. Norton. Well, I understand what you are saying, Mr. 
Bathurst. This was a $3.4 billion building. I must say I give 
great credit to GSA for keeping on time. I don't know how you 
have been able to do it so far. We did get a big tranche of 
money out in the beginning which has allowed you to move 
forward.
    But I think the Coast Guard has every reason to be 
concerned. Of course, Coast Guard and, for that matter, none of 
us on this podium controls what Congress in fact appropriates. 
Is there enough money appropriated in the Senate appropriation 
to complete this building and to move the DHS and the GSA part 
of it, since both have been funded forward as anticipated?
    Mr. Bathurst. The combined President's request was $377 
million in fiscal year 2012. That included $159 million for DHS 
and $218 million for GSA. Of that total, we need $132 million 
to complete the Coast Guard's occupancy in accordance with the 
schedule and all agreements for transportation. We currently 
have a mark in the Senate for DHS at $56 million and a 
subcommittee mark of $65 million for all of GSA's construction 
programs. It is uncertain, but, right now, those marks don't 
rise to the level that we had planned for.
    You mention how we have been able to keep this project on 
track; and GSA, I agree, has done a phenomenal job of 
coordinating all the contracts and the trades. We will find a 
way to keep this project moving forward. However, we will not 
be able to keep to the schedule, and some impacts on 
transportation can be expected. And as the committee has said, 
there are much concerns about transportation. And this is a 
very, very delicate and intricate dance that we are doing with 
the neighborhood and the like.
    We believe that with the President's request we can bring 
this project forward, deliver the first phase, and meet the 
transportation needs. If there is something less that that, 
there is going to be impacts on the transportation side, but we 
will do all we can to bring the project forward as close to the 
schedule requirements as we can.
    Ms. Norton. I am over time, so, Mr. Chairman, I would like 
to go again if you are going to have a second round.
    Mr. LoBiondo. Mr. Bathurst, is the decision to move the 
Coast Guard headquarters to St. Elizabeths under review by the 
Department?
    Mr. Bathurst. No, sir. We are looking at the entire phasing 
of the project for phase 2 and phase 3 because of the impacts 
of the fiscal year 2011 mark and the uncertainty of 2012. We 
are going back--the original strategy for the project was 
really one that was a little bit different than most Federal 
construction, where normally the idea is you get all the money 
you need to deliver everything that you need all at one time. 
Because of the complexity of this project, and we looked at it 
and felt that, working with GSA, we developed a strategy for an 
integrated construction schedule, not unlike you do in the 
private sector, and you only draw the money that you need at 
the time that you need it. What that has led us to, though, 
here is where we have had a reduction in that funding stream. 
It has impacted those original plans.
    So we are going back to relook at the strategy to go back 
to those deliverable segments into the future. And that is 
going to impact future occupancies, but the idea is we want to 
try to bring those on as quickly as fiscally allowable.
    Mr. LoBiondo. Mr. Landry, do you have questions?
    Mr. Landry. Oh, yes, sir, Mr. Chairman.
    First, Admiral, thank you for your service. The Coast Guard 
is one of my favorite agencies. Of course, it is not without 
some selfish motivation. I fish offshore in the Gulf of Mexico. 
If I ever get stranded, always remember my kind comments, 
please.
    Mr. Peck, I reviewed some of these photos of the new Coast 
Guard headquarters. That is a pretty interesting design dig you 
all have made on the side of that hill. What is the elevation 
change of the construction site?
    Mr. Peck. Depends on where we measure. From the Anacostia 
Metro station to the top of the hill, 110 feet. That is not the 
elevation of the building itself, though, sir.
    Mr. Landry. Why did you have to dig the whole hillside up?
    Mr. Peck. I think the short answer is that the St. 
Elizabeths campus, while it is a large campus, is both--has a 
number of historic buildings and is itself an historic 
landscape. So when the master planning was done at the project 
we did all we could to make reuse of the historic buildings and 
to fit in new construction where we could. In this case, a 
building as large as the Coast Guard headquarters had--what was 
the largest open site we could use happened to be on a 
hillside.
    Mr. Landry. So how much did that site work cost?
    Mr. Peck. That is a--I don't--I have various numbers for 
excavation. If you want me to isolate it to the Coast Guard 
building itself, I will submit that for the record.
    Mr. Landry. OK. Do you have an idea? Five, ten million 
dollars?
    Mr. Peck. The cost of excavation--and I am being advised by 
Mr. Ebadi, who, in answer to Ms. Norton, is probably the one 
single reason why from the GSA on this project is on time and 
budget. We also have a good partnership with DHS. The cost of 
excavation for this building is about $29 million, and that is 
the cost of hauling the fill out, also.
    Mr. Landry. So it was GSA's decision to dig the hillside 
up?
    Mr. Peck. It was a decision made when the master plan was 
created and agreed upon in 2006.
    Mr. Landry. And the master plan, the decision to dig the 
whole hillside up at the cost of $26 million or better was made 
by you all to protect some view?
    Mr. Peck. No, sir. The building--first of all, there was--
in order to get the building on the site, any building requires 
excavation.
    Mr. Landry. I understand. But not moving a whole hill. What 
did ya'll do with all the dirt?
    Mr. Peck. It would be really hard to build--this was a 
pretty steep slope.
    Mr. Landry. You normally don't build on a pretty steep 
slope. I am trying to understand. What did ya'll do with all 
the dirt?
    Mr. Peck. A lot had to be hauled out of the site. Some of 
it was contaminated and had to be hauled away.
    Mr. Landry. It was contaminated?
    Mr. Peck. On most construction sites, some of it, yes, sir.
    Mr. Landry. We could have used that on the coast, Mr. 
Chairman. It was a lot of dirt.
    Mr. Peck. We didn't have to take it that far, Mr. Landry.
    Mr. Landry. And so couldn't we have saved the taxpayers 
some money by moving it a little further on top of the hill 
where we didn't have to excavate the whole hill?
    Mr. Peck. Mr. Landry, we were trying to put on this site 
several million square feet of office space. To utilize this 
site as a consolidated campus, some part of it would have to 
occupy this part of the site, which would require excavation.
    Mr. Landry. Well, then who picked the site?
    Mr. Peck. That was before my time in the General Services 
Administration. But in an effort to find a site for the 
Department's headquarters, which began when the Department was 
established, we were looking for a central location in the 
national capital region. This was a piece of large land that 
was already owned by the Federal Government, which means we 
saved a considerable amount of money by not having to go out 
and acquire a site.
    Mr. Landry. We couldn't have put it further up on top of 
the hill. Is that impossible? We couldn't put it up there by 
that I guess that hospital up there?
    Mr. Peck. Well, we don't have a site plan up, but I think 
you will be able to see, if we show you the entire site plan, 
that, but for sloping areas of this site, I don't believe there 
would be an area in which you could fit in a building of this 
size unless we were to demolish a good number of the historic 
buildings.
    Mr. Landry. Thank you, Mr. Chairman.
    Mr. LoBiondo. Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman.
    Admiral Currier, you say--you express a concern with which 
I am in complete sympathy. One of the key concerns expressed by 
our employees is transportation due to reduced access to nearby 
parking as compared to other current locations. I think the 
chairman raised this same concern, and I wish you would speak 
to it.
    Mr. Peck, if the infrastructure isn't perfectly in place at 
the time the building is completed and all of the movement has 
taken place to get the employees there, would there be 
transportation from public--would there--of course, we always 
encourage people in the Federal Government to use public 
transportation. Would there be shuttle transportation provided? 
Would there be any limits on providing such transportation as 
needed? How much parking will be on the site?
    Mr. Peck. We will have for the--to start with the last 
question, we will have on the site for the use of the Coast 
Guard approximately 900 parking spaces in the structured 
parking garage, which is being built and which is on the far 
right-hand side of the photo that you see on the screen.
    To get to that parking, we do need to complete an access 
road through First Sterling and when it parallels the 295 
freeway. If we do get the funding, even the mark we got in the 
Senate, which is less than we requested, we can complete that 
access road on time for the building's occupancy.
    The Anacostia Metro station is three-quarters of a mile 
from this building, which is closer than the current Maiden 
leased location that the Coast Guard--closer by a quarter of a 
mile than the current leased location of the Coast Guard is to 
a Metro station.
    One thing, if I may add, although I know it sometimes 
sounds counterintuitive, the lack of funding and the hiatus in 
funding on the project in the end costs more. The fact that we 
got no funding in fiscal year 2011 for that project has already 
caused us to take $30 million that we would have spent on other 
projects to redesign and reposition utilities for the campus so 
that when the Coast Guard building is opened and its operation 
center opens we can actually have a functioning building. 
Because all those utility tunnels and conduits were going to go 
in various different places, it was going to be less expensive 
in the long run to continue straight on to phase 2. We have 
been able to move funds around so that the building will be 
functional when it opens.
    Finally, to answer your question, the Department of 
Homeland Security, under normal procedures, would fund the 
shuttle service to the Metro station; and they do intend to do 
that. In any event, we will be funding a shuttle to the Metro 
station, whether or not we have the access road complete at 
that time.
    Ms. Norton. Admiral Currier, we have some information that 
there has been some flooding in the buildings that house the 
present headquarters. Would you describe the condition of your 
present headquarters building?
    Admiral Currier. The present headquarters building--well, 
the site contains two buildings--what we call the Jemal 
building and the Transpoint building--our headquarters is very 
low to the river, very close to the level of the river. When 
there are tidal surges as a result of hurricanes or serious 
storms, we occasionally get flooding inside the building.
    We had near-catastrophic flooding a few years back when we 
discovered that the building's critical infrastructure, 
including generators and power lines, computer lines, were 
actually in the subbasement, were flooded and rendered the 
headquarters inoperative for some period of time. Subsequently, 
money has been spent to harden that site, but it is still 
barely adequate for our current function.
    So that is the reason, ma'am, as I stated before, that we 
are truly looking forward to the move to a more functional, 
protected headquarters.
    Ms. Norton. Finally, Mr. Peck, the headquarters building of 
the Coast Guard now is a leased building, is that not the case?
    Mr. Peck. Yes, ma'am, the two buildings.
    Ms. Norton. And those funds go to, of course, the owner of 
those buildings. Now, as I understand it, the Coast Guard will 
pay rent, as it were, to the Federal buildings fund. How will 
the Coast Guard benefit from these funds which go to the 
Federal buildings fund rather than to the lessor?
    Mr. Peck. Well, first of all, of course, even now the 
Federal cost of borrowing is less than a private-sector owner's 
is. But the shortest answer is that when money comes in to the 
Federal buildings fund it is essentially a revolving fund, and 
we use the money to maintain and upgrade our buildings. 
Particularly over a long period of time, almost any investment 
study shows we, as stewards of the taxpayers' dollars, end up 
better with an owned building in which we can plow the proceeds 
from the rent back into our building in the infrastructure than 
if it goes out to private-sector tenants. Particularly when we 
have a long-term function that we don't need to move, we don't 
intend to move out of, we don't need the flexibility that you 
get from being in a lease that you might leave at a couple of 
years.
    One other thing I would just note is that the building is 
being built at least to a LEED gold standard. It will be more 
energy efficient.
    And I want to make two commitments to the Coast Guard, one 
we are going to make to all Federal tenants, which is, if we 
realize the energy savings that we hope we will see in running 
this building and having a separate co-generation plant on the 
site we will share those savings with the tenant. That is 
number one.
    Number two, if I may take a moment, I want to reiterate in 
public what Admiral Currier said. We have agreed on and 
committed to that the Coast Guard--neither the Coast Guard nor 
DHS will be responsible for any double rent that might be 
incurred by the fact that our leases on the current buildings 
will still be running at the time that the Coast Guard moves to 
St. Elizabeths. GSA will bear that liability.
    Ms. Norton. Mr. Peck, is there any chance--could I have one 
more question? Is there any chance that this building could 
become a white elephant and what would be the effect of leaving 
this building uninhabited?
    Mr. Peck. We would still bear the cost of maintaining and 
securing an empty building. Aside from the embarrassment 
factor, there is the fact that the Coast Guard would continue 
to operate in a building that is less than optimal. As I say, 
we would have the expense of maintaining a significant 
investment. Because we are certainly not going--we would have 
to mothball the building, and there are costs to that. We would 
have to run utilities, and we would have to secure it.
    Ms. Norton. Thank you, Mr. Chairman.
    Mr. LoBiondo. Mr. Larsen.
    Mr. Larsen. Admiral Currier, it is my prior understanding 
that all personal presently locate at the time at the two 
Buzzard Points buildings would be relocated, but now I 
understand that some non-headquarter functions, such as the 
Marine safety center, does not intend to move to the new 
headquarters. When was that decision made? And the broader 
question, what elements and how many personnel will not be 
moving to St. Elizabeths?
    Admiral Currier. Thank you, Mr. Larsen.
    In the normal administration of the Coast Guard, we have 
what we call modernization. I think you have seen the results 
of that in some of our acquisition activities and others.
    As part of this modernization there was some 
reorganization. The civilian personnel entity, what we call 
Coast Guard 121, is a staff element of about 80 people, is 
being relocated to a separate command inside the beltway, but 
they will no longer be a headquarters element. They will be 
part of this separate personnel support command that exists.
    And the Marine safety center, as you noted, is not a 
headquarters function, and their rent costs is actually part 
our base. They will be relocated as well. We don't want to 
collocate them at headquarters at St. E's.
    Those are two very minor in the big-picture adjustments to 
our staffs, one of which was a reorganization; the other one is 
a relocation of a non-headquarters element.
    Mr. Larsen. And so the Coast Guard has budgeted for the 
cost of the lease space, continue to lease space at the 
Buzzards Point for the Marine safety center and for the leased 
costs for moving the 80 or so folks?
    Admiral Currier. No, sir. There are two groups of 80 
people. Both will be relocated, none will be at Buzzards Point, 
and their rent costs are actually in our base.
    Mr. Larsen. They are in your base.
    Admiral Currier. Yes, sir.
    Mr. Larsen. OK, great. That is good.
    Thank you, Mr. Chairman.
    Mr. LoBiondo. Admiral Currier and Mr. Bathurst, there were 
what I think is some critical information and numbers and 
information for the subcommittee to be able to better 
understand this. You explained how you are working through 
this. Tell us when we can expect to be able to hear from you on 
some hard numbers. We are a little hesitant to just leave it 
open ended, because when we do those things then we take a 
blink and we are 6 months later.
    Mr. Bathurst. Most of those numbers really are--would be 
impacted in the next budget submission from the White House, 
and we are working right now to develop that information. So it 
is premature for to us talk about the numbers, but we will 
definitely have them with the budget request in February.
    Mr. LoBiondo. In when?
    Mr. Bathurst. With the President's budget request.
    Mr. LoBiondo. Could we ask for a December 1st update?
    Mr. Bathurst. I believe we can give you a status report of 
where we stand with the analysis, but I don't think we will be 
able to actually discuss any specific numbers. But we can let 
you know where we are moving and moving toward.
    Mr. LoBiondo. Well, all of these--I think we were able to 
shed a lot of light on it today, but, you know, a lot depends 
on what is going to happen in the next month or two, of course, 
with continuing resolution, omnibus or how we move forward. 
Even if we went with a full Senate number that you have, it 
still looks like there is $10 million, $12 million short on how 
you do this. So as we move forward I would--I think it would be 
preferable, if you have the information, can share it with the 
subcommittee informally. But, depending on how it goes, we will 
just have to decide whether we call another formal hearing.
    Mr. Peck.
    Mr. Peck. Thank you, Mr. Chairman.
    On thing I just wanted to clarify. While we had asked for 
$76 million in fiscal 2012 and the Senate mark is $65 million, 
we have already taken a look; and it wouldn't be the first time 
that we had to be agile to bend a building project to the 
amount of money we have. We are confident that we will do what 
we need to do within that mark as well to get the building open 
on time in 2013. But I also would be happy to give the--
participate with DHS in giving you an update on whatever 
numbers we have on December 1st.
    Mr. LoBiondo. Sure. Well, we are hopeful that we can get 
some good numbers, but the task that is facing the Congress and 
the country by the end of the year with the debt limit, 
supercommittee, and all that is going into this, if those 
numbers slip substantially we have to be able to figure out 
what that means and what the implications are and try to put 
our brains together on this.
    So everybody good here now?
    Thank you. The committee is adjourned.
    [Whereupon, at 11:02 a.m., the subcommittee was adjourned.]

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
